Audit of the Sustainable Economic Policy and
Institutional Reform Support (SEPIRS)
Program at USAID/Afghanistan

Report No. 5-306-04-005-P

August 17, 2004




                  Manila, Philippines
August 17, 2004


MEMORANDUM
FOR:           USAID/Afghanistan Mission Director, Patrick C. Fine

FROM:          Acting Regional Inspector General/Manila, George R. Jiron Jr.
               /s/

SUBJECT:       Audit of the Sustainable Economic Policy and Institutional Reform
               Support (SEPIRS) Program at USAID/Afghanistan
               (Report No. 5-306-04-005-P)


This memorandum is our final report on the subject audit. In finalizing the report,
we considered your comments on the draft report, and we have included the
comments (without attachments) in Appendix II. This report includes one
recommendation. Based on the information provided by the Mission in response to
the draft report, we consider that final action has been taken on the recommendation
upon issuance of this report.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.




                                                                                  1
(This page intentionally left blank)




                                       2
Table of
Contents   Summary of Results………………………………………………………………5

           Background……………………………………………………………………….5

           Audit Objective…………………………………………………………………...6

           Audit Findings..…………………………………………………………………..7

                Are USAID/Afghanistan’s economic governance activities
                on schedule to achieve planned outputs?....................................................7

                         Mission Should Obtain Quarterly
                         Workplans from the Contractor…………….………………….....8

           Evaluation of Management Comments………….………………………………13

           Appendix I – Scope and Methodology.........…………………………………….15

           Appendix II – Management Comments……………………………………........17




                                                                                                           3
(This page intentionally left blank)




                                       4
Summary of   The Regional Inspector General/Manila conducted this audit to determine whether
Results      USAID/Afghanistan’s economic governance activities are on schedule to achieve
             planned outputs (page 6).

             We could not determine whether the Sustainable Economic Policy and
             Institutional Reform Support (SEPIRS) program—USAID/Afghanistan’s
             economic governance program—is on schedule to achieve planned outputs
             because there was no current workplan for the program that contained expected
             accomplishments and milestones against which to measure progress (pages 7 and
             8). This occurred because USAID/Afghanistan did not require the contractor
             implementing the SEPIRS program to prepare quarterly workplans, even though
             such workplans were required under the SEPIRS contract (page 8). However, we
             found that progress was being made and USAID/Afghanistan monitored the
             program in other ways (page 7).

             So that it can fully monitor the progress and accomplishments of the SEPIRS
             program, this report is recommending that USAID/Afghanistan require the
             contractor to submit to USAID/Afghanistan for approval quarterly workplan reports
             that contain expected accomplishments as well as milestones (page 12).

             USAID/Afghanistan generally agreed with the recommendation and it provided
             evidence of corrective actions. Based on that evidence, we consider that final action
             has been taken on the recommendation (page 13).


Background   Afghanistan is beginning the slow process of rebuilding from twenty years of
             conflict and disinvestments. Key institutions such as a central bank, treasury,
             customs and judiciary are weak or missing. The leadership of Afghanistan is
             trying to regain its national footing and establish political and economic stability.
             To help establish economic stability, USAID/Afghanistan began implementing
             economic governance activities through its Sustainable Economic Policy and
             Institutional Reform Support (SEPIRS) program. The purpose of the SEPIRS
             program is to assist the Transitional Afghan Authority in implementing and
             institutionalizing reforms to improve economic management and develop
             institutions for economic governance. More specifically, the SEPIRS program
             targets five economic governance areas for reform: fiscal, banking,
             legal/regulatory, trade, and privatization.

             In December 2002, USAID/Afghanistan awarded a contract to Bearing Point to
             carry out the SEPIRS program. Bearing Point uses expatriate and local
             consultants to provide technical assistance to various ministries of the Transitional
             Afghan Authority. For example, under “fiscal reform”, consultants work with the
             Ministry of Finance on activities such as establishing an efficient tax
             administration system and a budget planning and reporting system. “Banking
             reform” includes not only strengthening the Central Bank but also working with it


                                                                                                5
            on activities such as licensing and regulating banks, and maintaining a stable
            currency. “Legal/regulatory reform” includes activities such as the drafting and
            passing of laws governing banking, taxation, property and natural resources.
            Under “trade reform”, consultants provide technical assistance to the Ministry of
            Commerce on activities such as entering the World Trade Organization,
            developing exports and organizing women entrepreneurs. At the time of our audit
            fieldwork, “privatization reform” activities had been postponed.

            The SEPIRS program has a three-year base period and a current life-of-project
            estimated cost of $96 million. As the chart below illustrates, as of February 2004
            Bearing Point had 192 consultants working on the program—mostly in the areas
            of fiscal, banking and legal/regulatory reforms. As of April 30, 2004, Bearing
            Point had spent $28.2 million on reforms in these three areas. Because most of
            the SEPIRS program’s resources were being applied to the three areas, we
            focused our audit on them. The audit of the USAID/Afghanistan’s SEPIRS
            program covered the period from January 2003 to April 2004.


                               Bearing Point Staffing for the SEPIRS Program
                                           As of February 2004
                              80
                              70
                Consultants




                              60
                 Number of




                              50
                              40
                              30
                              20
                              10
                               0
                                     Fiscal            Banking    Legal/Regulatory         Trade

                                              Economic Governance Task Areas
                                              Local Consultants   Expatriate Consultants




Audit       The Regional Inspector General/Manila included this audit in its fiscal year 2004
Objective   audit plan to answer the following question:

            Are USAID/Afghanistan’s economic governance activities on schedule to achieve
            planned outputs?

            Appendix I contains a discussion of the audit's scope and methodology.




                                                                                                   6
Audit Findings   We could not determine whether the Sustainable Economic Policy and
                 Institutional Reform Support (SEPIRS) program—USAID/Afghanistan’s
                 economic governance program—was on schedule to achieve planned outputs
                 because there was no current workplan for the program that contained expected
                 accomplishments and milestones against which to measure progress. Bearing
                 Point did not prepare such workplans on a quarterly basis as it was required to do
                 under its contract, and USAID/Afghanistan did not require Bearing Point to
                 provide the contractually-mandated workplans.

                 Although we were unable to determine whether the SEPIRS program is on
                 schedule to achieve planned outputs, Bearing Point had made progress with
                 regard to numerous responsibilities mentioned in its contract. The progress
                 included:

                 •   Developing a system to estimate government revenues and expenditures.

                 •   Designing a “large taxpayer” unit to ensure that taxes are collected from such
                     taxpayers.

                 •   Introducing a taxpayer identification number system.

                 •   Developing a computerized database for customs revenues.

                 •   Creating and implementing a budget system at the national and provincial
                     levels.

                 •   Training Afghans to develop and monitor budgets.

                 •   Creating a system to allocate equitably monies received from donors to
                     provide public services.

                 •   Assisting the Afghan Central Bank to establish national and international
                     operations via standard banking telecommunications networks.

                 •   Helping to develop criteria for the entry of new banks into the commercial
                     banking system in Afghanistan.

                 •   Assessing bank supervision in Afghanistan and implementing bank licensing
                     policies and procedures.

                 Although USAID/Afghanistan did not obtain quarterly workplans from the
                 contractor (only two such workplans were done since contract inception and both
                 were outdated), the Mission did attempt to monitor the program in various ways.
                 At the time our audit started (March 8, 2004), the Mission’s current Cognizant
                 Technical Officer (CTO) was working with Bearing Point and with officials from


                                                                                                 7
the Transitional Afghan Authority to improve the monitoring of the SEPIRS
program.1 Specifically, the CTO was revising the contractor’s overall scope of
work, helping to prepare an up-to-date workplan, and developing performance
indicators—tasks he undertook since he arrived in Kabul in September 2003. He
was making these changes in part because the Transitional Afghan Authority had
complained about its lack of influence regarding activities carried out under the
SEPIRS program. In addition to the above activities, the CTO and other Mission
officials attempted to monitor the SEPIRS program by:

•   Reviewing consultants’ scopes of work.

•   Monitoring consultants’ deliverables and outputs.

•   Tracking the program’s budget and expenditures.

•   Examining invoices submitted by Bearing Point.

•   Cultivating relationships with the contractor and the Transitional Afghan
    Authority.

•   Meeting weekly with contractor staff.

However, as the following discussion explains, to fully monitor progress and
accomplishments, the Mission needs to obtain from Bearing Point a current
workplan for the SEPIRS program that contains expected accomplishments and
milestones.

Mission Should Obtain Quarterly
Workplans from the Contractor

    Summary: The contract for USAID/Afghanistan’s economic governance
    program requires Bearing Point to prepare quarterly workplans, including
    expected accomplishments and milestones for measuring the program’s
    progress. However, Bearing Point did not prepare workplans on a quarterly
    basis. Only two such workplans were done since January 2003, and both were
    outdated—and neither included milestones for the expected accomplishments.
    The Mission did not require the contractor to provide such workplans because
    of understaffing and because the program was supposed to be “flexible by
    design.” Consequently, a comprehensive, up-to-date list of activities and
    milestones to measure the program’s progress was not available, making it
    difficult to properly monitor this complex program.

1
  According to USAID’s Automated Directives System Glossary, a Cognizant Technical Officer is
the individual who performs functions that are designated by the Contracting or Agreement
Officer, or is specifically designated by policy or regulation as part of contract or assistance
administration.


                                                                                              8
The contract for USAID/Afghanistan’s economic governance program requires
Bearing Point to prepare workplans, including expected accomplishments and
milestones. Specifically, the contract says that “The contractor shall prepare
detailed quarterly reports which elucidate expected accomplishments in each
major project component.”2 In addition, the contract states that “the actual
‘milestones’ for the contract will be articulated in the approved workplan.”3 Further,
the contract requires the contractor to submit all quarterly workplans to
USAID/Afghanistan for approval. According to USAID’s Automated Directives
System, a milestone is “a type of indicator that measures progress toward a
desired outcome by dividing the progress into a series of defined steps.” 4

However, USAID/Afghanistan did not obtain quarterly workplans with
milestones for expected accomplishments from Bearing Point. According to the
contract, workplans should have been prepared quarterly, beginning in January
2003. By March 31, 2004, Bearing Point should have prepared a total of six
workplans. However, the contractor had prepared only two: one in January 2003
and another in July 2003. A third was in draft on March 31, 2004, but consisted
primarily of a series of some 60 workplans for individual expatriate consultants.
Neither of the first two workplans were ever approved by USAID/Afghanistan.
In addition, although these two workplans included a column labeled
“Deliverables/Results,” the expected accomplishments listed in the column were
vaguely worded and did not include milestones to measure progress.

Moreover, the current draft workplan had the same problems as the two earlier
ones: (1) no clear expected accomplishments, and (2) no milestones that divided
expected progress into a series of defined steps. Instead, the draft workplan
consisted of a collection of individual workplans for each of the approximately 60
expatriate consultants that Bearing Point currently had on board—individual
workplans that had not been condensed into a finalized workplan. Further, the
related performance indicators for these consultants were also a work in progress.

In addition, the individual draft workplans did not always reflect activities that
were actually underway. Based on interviews with 11 Bearing Point expatriate
consultants, and reviews of their draft workplans, 5 of the 11 were found to be
performing at least one significant activity that was not included in their
workplans. In addition, 3 of the 11 were found not to be performing at least one
significant activity that was included in their workplans. Furthermore, of the 28
activities tested for these 11 consultants, 27 activities had vague or missing
expected accomplishments and none of the 28 had established milestones for
achieving the expected accomplishments.




2
  Bearing Point Contract, section C.3.2.
3
  Bearing Point Contract, section C.2.3.
4
  Automated Directives System 203.3.4.1, Milestone Indicator.


                                                                                    9
Examples of these exceptions are discussed below and are grouped by the three
task areas covered in this audit:

Fiscal Task Area

•   One Bearing Point consultant explained that one of his goals (expected
    accomplishments) was to reduce the number of “administrative requirements”
    in the customs process, and that he was using an indicator which he described
    as “administrative requirements before and after customs reforms;” however,
    his draft workplan does not mention this goal or this indicator.

•   A second consultant indicated he was attempting to measure unreported tax
    revenue (e.g., revenue collected by officials in the provinces but not provided
    to the Transitional Afghan Authority), but the activity was not in his draft
    workplan.

•   A third consultant was training tax collectors, even though the expected result
    for the number of employees trained was not in his draft workplan.

•   A fourth consultant indicated he was working to issue Taxpayer Identification
    Numbers, even though this activity and the expected result were not included
    in his draft workplan.

Banking Task Area

•   One Bearing Point consultant was working to maintain a stable currency
    exchange rate and a single-digit rate of inflation, but these activities and
    expected accomplishments were not included in his draft workplan.

•   The same consultant was working in the area of economic growth, attempting
    to achieve double-digit annual increases in the gross domestic product. This
    activity and the expected result were not mentioned in his draft workplan.

•   Another consultant was working to implement a bank money transfer system
    (as opposed to the informal unregulated system, known as the hawala, in wide
    use), but the purported goal, an unspecified number of successful money
    transfers, was not documented in his draft workplan.

•   A third consultant, working in the area of bank supervision and licensing,
    identified numerous goals for activities in this area, but the expected results of
    these activities were not documented in his draft workplan.




                                                                                   10
       Photograph of currency traders, referred to as the hawala, who operate in an informal,
         unregulated setting. These traders also provide services such as money transfers.
                                (Kabul, Afghanistan, March 2004)

Legal/Regulatory Task Area

•   The draft workplan did not include the name of one of the two consultants
    involved in the Telecommunications Sector Reform activity, and the expected
    results of this activity were not discussed in the draft workplan.

To summarize: quarterly workplans were not done as required and milestones for
expected accomplishments were not included in the two workplans that were
done—nor were they included in draft workplans for individual consultants. In
addition, the expected accomplishments in the two workplans and in the draft
workplans were vaguely defined and difficult to measure without milestones.
And finally some consultants were not doing activities that were specified in their
individual draft workplans, while others were engaged in activities not included in
their individual draft workplans.

Quarterly workplans with milestones were not done because the Mission did not
require Bearing Point to produce quarterly workplans as required by the SEPIRS
contract. Two factors contributed to the Mission not enforcing this contract
requirement: Mission understaffing and the “flexible design” of the program. The
Mission indicated in its Federal Managers’ Financial Integrity Act submission for
the year ended September 30, 2003 that it was understaffed. The Deputy Mission
Director explained that they did not have adequate time to properly review
workplans. However, understaffing is no longer as serious a problem as it was at


                                                                                                11
the inception of the program when the Deputy Mission Director had to serve as
the CTO for the program, along with his many other duties.

Further, Mission officials indicated that the SEPIRS program is flexible by
design, and has been in flux from its inception. Even the contract itself is very
flexible in nature. It provides lists of general contractor “responsibilities” in each
of the program's five reform areas but does not specifically set forth expected
accomplishments and milestones. Instead, the contract relies on quarterly
workplans to do that, so as to provide a certain flexibility and responsiveness for
the program.

This flexibility is also mirrored in the program’s funding which increased
dramatically, from $40 million in January 2003 to $96 million as of April 2004.
Because of the growth of the program, the contractor’s scope of work was in
constant revision, and contract provisions for quarterly workplans were not
enforced.

The current CTO for the SEPIRS program, who at the time of the audit was
revising the contractor’s scope of work to fit the expanded program, believes the
program is on schedule to achieve planned outputs. However, without a current
approved workplan, it is difficult to make such an authoritative judgment. Also
without an approved workplan, properly monitoring the progress of the program,
with its many activities and numerous consultants and Transitional Afghan
Authority counterparts, is difficult, if not impossible. For example, Bearing Point
prepares monthly status reports to summarize program progress “against
benchmarks,” but without workplans listing what those benchmarks are, these
status reports merely report what is being done, without considering progress
compared to expected results.

The Bearing Point workplan should document all key activities being performed
by Bearing Point consultants, and the expected accomplishments of these
activities. The workplan should also provide milestones to monitor the progress
of these activities. USAID/Afghanistan should require Bearing Point to comply
with the SEPIRS contract to facilitate better monitoring of the program. The
following recommendation addresses this opportunity to improve the monitoring
of the SEPIRS program.

       Recommendation No. 1:              We recommend that
       USAID/Afghanistan require Bearing Point to comply with the
       Sustainable Economic Policy and Institutional Reform Support
       program contract by submitting to USAID/Afghanistan for
       approval quarterly workplan reports that include expected
       accomplishments and milestones.




                                                                                   12
Evaluation of   In response to our draft report, USAID/Afghanistan provided written comments
Management      that are included (without attachments) in Appendix II. USAID/Afghanistan
                generally agreed with the recommendation and it provided evidence of corrective
Comments
                actions. Based on our review of USAID/Afghanistan’s comments and the
                documentation supporting its corrective actions, final action has been taken on the
                one recommendation in this report.

                USAID/Afghanistan agreed with the need for quarterly workplan reports as a tool
                to measure the progress of the SEPIRS program and the performance of
                consultants. USAID/Afghanistan pointed out that Modification No. 9 to the
                SEPIRS contract, dated April 20, 2004, requires Bearing Point to submit an
                updated workplan for activities under the contract. In addition, the modification
                requires Bearing Point to put in place a system that allows quarterly updates and
                submission of quarterly workplan reports with expected accomplishments and
                milestones. We noted that the modification contains the same requirements that
                were already in the contract (see footnotes 2 and 3 on page 9). Nonetheless,
                USAID/Afghanistan provided other documentation to show enforcement of the
                modification.

                For example, USAID/Afghanistan provided evidence that in July 2004, the
                contractor put in place a monitoring system that includes updated workplans.
                Further, USAID/Afghanistan provided a schedule of due dates for the quarterly
                workplans required under the contract. In addition, USAID/Afghanistan
                submitted the most recent contractor workplan it approved in July 2004, as well as
                other detailed supporting documentation, that illustrate additional corrective
                actions to enforce contract requirements. For example, the approved workplan
                specifically refers to the requirements of Modification No. 9. Further, after
                reviewing the approved workplan, the OIG concluded that it does include clear
                expected accomplishments and milestones that divide expected progress into a
                series of defined steps.          Consequently, based on our review of
                USAID/Afghanistan’s corrective actions, final action has been taken on the one
                recommendation in this report.

                USAID/Afghanistan did disagree with the OIG contention that the current draft
                workplan did not convey clear expected accomplishments and milestones that
                divided expected progress into a series of defined steps. To support its
                disagreement, USAID/Afghanistan referred to the monitoring system put into
                place in July 2004 by the contractor, and the updated workplan approved by
                USAID/Afghanistan in July 2004. However, the action taken by the contractor
                was after the OIG completed its fieldwork in early April 2004. Further, the
                workplan USAID/Afghanistan refers to is not the same workplan discussed in this
                report. Rather, it is a workplan developed after our visit to Afghanistan.

                Finally, as acknowledged in this report, USAID/Afghanistan stressed that it has
                monitored the program in several ways and that the contractor has made progress.



                                                                                                13
(This page intentionally left blank)




                                       14
                                                                                           Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/Manila conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit was to
              determine whether USAID/Afghanistan’s economic governance activities are on
              schedule to achieve planned outputs. The audit covered USAID/Afghanistan’s
              Sustainable Economic Policy and Institutional Reform Support (SEPIRS)
              program, which was being implemented by Bearing Point. As of April 15, 2004,
              the contract with Bearing Point was for three years (with a two-year option
              period) at an estimated cost of about $96 million. At April 30, 2004, total
              expenditures under the contract were about $28.2 million.

              We conducted the audit fieldwork in Kabul, Afghanistan from March 8 to April 5,
              2004, at the offices of USAID/Afghanistan and Bearing Point, and at other sites
              within the country. The audit of the USAID/Afghanistan’s SEPIRS program
              covered the period from January 2003 to April 2004.

              Under its contract, Bearing Point was to carry out reforms in five economic
              governance areas: fiscal, banking, legal/regulatory, trade and privatization. To help
              determine whether economic governance activities are on schedule to achieve
              planned outputs, we judgmentally selected 28 activities from three of the five task
              areas (fiscal, banking and legal/regulatory) for which we had 60 draft individual
              workplans—and from other activities which came to our attention which were not
              included in these draft workplans. The three areas were selected based on their
              relative funding and staffing levels. The results of our judgmentally selected sample
              of 28 activities cannot be statistically projected to the entire population of activities.

              In planning and performing the audit, we reviewed internal controls related to
              ensuring that activities under the SEPIRS program are on schedule to achieve
              planned outputs. Specifically, we examined and assessed the following significant
              internal controls: (1) the requirements of the contract with Bearing Point, (2) activity
              workplans, (3) performance indicators where they existed, (4) actual performance
              results, (5) USAID/Afghanistan’s system for monitoring the contractor’s
              performance, and (6) USAID/Afghanistan’s fiscal year 2003 self-assessment under
              the Federal Managers’ Financial Integrity Act. Additionally, we reviewed risk
              assessments that related to the SEPIRS program. Further, we interviewed officials
              from Bearing Point and USAID/Afghanistan, reviewed other pertinent
              documentation, and visited sites where Bearing Point consultants were providing
              technical assistance.

              The SEPIRS program did not have a quarterly workplan with milestones and
              planned outputs. As a result, we could not determine whether USAID/Afghanistan’s
              economic governance activities are on schedule to achieve planned outputs.
              Although we could not render an opinion without a quarterly workplan with



                                                                                                     15
milestones and planned outputs, this did not preclude us from reporting on problem
areas that came to our attention, and we have done so.

Methodology

To answer the audit objective, we interviewed USAID/Afghanistan officials,
including both the former and the current Cognizant Technical Officer for the
contract with Bearing Point. We also interviewed officials from Bearing Point.
From USAID/Afghanistan, we obtained documentation on its system for monitoring
the SEPIRS program. We obtained and analyzed documents prepared by
USAID/Afghanistan and Bearing Point related to the achievement of planned
outputs such as the January 2003 and July 2003 workplans, draft workplans for
individual expatriate consultants that were in process at the time of our audit,
performance indicators where they existed, and actual performance results as
reported by the contractor. We also obtained and reviewed the contract between the
USAID/Afghanistan and Bearing Point.

In addition to the above activities, we visited 11 Bearing Point consultants to discuss
the 28 technical assistance activities they were implementing. For example, at
Jalalabad, Afghanistan, we interviewed consultants working on fiscal reform
activities. We interviewed other consultants who were also working on fiscal reform
activities at the Ministry of Finance. Under banking reform, we visited consultants
working at the Afghan Central Bank. We also interviewed the legal advisor to
Bearing Point about progress on legal/regulatory reforms. The discussions held with
these individuals covered such topics as workplans, performance indicators and their
supporting data, and activity progress and problems.




                                                                                    16
                                                                            Appendix II


Management
                               United States Agency for International Development
Comments
                                               Kabul, Afghanistan
             August 2, 2004


             MEMORANDUM


             TO:              Mr. Bruce Boyer, RIG/A/ Manila

             THRU:            Charles Githaiga, Acting Controller /s/

             FROM:            Patrick Fine, Mission Director /s/

             SUBJECT:         Management      Comments   to   RIG/Manila’s    Draft
                              Performance Audit of the BearingPoint relating to
                              Sustainable Economic Policy and Institutional Reform
                              Support (SEPIRS) Program at USAID/ Afghanistan Audit
                              Report No. 5-442-04-xxx-P

             REF.: Boyer memo dated June 29, 2004

             We appreciate the opportunity to respond to the subject draft report.

             The Mission agrees with RIG’s position regarding the need for quarterly
             workplan reports as a tool to measure the progress of the program and the
             performance of the individual advisors. However as acknowledged on
             Page 12 of the report, the Mission strongly believes that it has been
             monitoring the program in several ways and Bearing Point has made
             substantial progress with regards to the deliverables in the contract.

             The Mission through Modification# 9 of the contract dated April 20, 2004
             requires Bearing Point to submit updated work-plan for activities under the
             contract. This modification also requires BearingPoint to put in place a
             system that allows quarterly updates and submission of quarterly workplan
             reports.

             Page Nine – The Mission disagrees with RIG’s view that the current draft
             workplan doesn’t convey (1) clear expected accomplishments and (2) no
             milestones that divided expected progress into a series of defined steps,
             for the following reasons:


                                                                                     17
BearingPoint has in July 2004 put in place a monitoring system that
includes updated workplans (approved by the mission on July 1, 2004),
performance indicators, and a weekly reporting structure:

•       The detailed workplan provides a snap shot in time of
BearingPoint's activities within the five economic governance areas of
fiscal, banking, legal regulatory, trade, and privatization.

•      Workplans detail the major projects under each governance area,
the milestones (key result areas or KRA) within each project, and the
detailed activity required to achieve the KRA. For each task, completion
dates and responsible staff to support the activity are identified. Further,
as appropriate, deliverables and performance indicators are identified to
allow measurement towards success / completion of the project.

•      BearingPoint is maintaining two sets of indicators. The first are Key
Indicators that measure BearingPoint's progress towards overall AEG
program objectives within each governance area. The second set of
indicators tie to detailed activities within the workplan and measure
BearingPoint's progress towards completion of specific tasks.

Attached, please find the following documents detailing the workplan and
the methodology used to develop it, as well as how the same would be
reported on weekly and monthly basis. :

1-AEG Overview
2-Appendix A - Pre April 2004 Accomplishments
3-Appendix B - AEG Interview List
4-Appendix C - Sector Level AEG Workplan
5-Appendix D - Project Level AEG Workplan
6-Appendix E - KRA Level AEG Workplan
7-Appendix F - Task Level AEG Workplan
8-Appendix G - TA Weekly Reporting Template – Example
9-Appendix G - TA Weekly Reporting Template – Instructions
10-Appendix H - AEG Indicators

In addition to the above, BearingPoint has been asked to produce the
quarterly reports referenced above (Appendix C, D, E, and F) updated
according to the following schedule:

             Second Quarter, 2004, due by July 31, 2004
             Third Quarter, 2004, due by October 30, 2004
             Fourth Quarter, 2004, due by January 31, 2005

             First Quarter, 2005, due by April 30, 2005


                                                                         18
              Second Quarter, 2005, due by July 31, 2005
              Third Quarter, 2005, due by October 30, 2005
              Fourth Quarter, 2005, due by January 31, 2006

The mission further recognizes that one of the major strengths designed
into the AEG program is the flexibility in technical assistance that can be
provided to the Government of Afghanistan. To mitigate risk while still
allowing for this flexibility, the weekly reporting structure will capture ALL
changes to each individual technical advisor's tasks in relationship to
his/her workplan. Additions and deletions to the workplan will be captured
through weekly reporting by individual technical advisors, and
communicated to USAID on a regular basis.

We once again appreciate the opportunity to comment on the draft report.

Attachments: as stated


Clearance:CO:MDCruz_______________




                                                                           19
